CERTIFICATE OF WORD COUNT
No. TBD
Philippe Buhannic,
Petitioner (s),
v.
New York Supreme Court, New York County,
Respondent(s).

1.1 am a pro se party who is Petitioner in this matter.
2. As required by Supreme Court Rule 33.1(h), I certify that the Philippe Buhannic Petition
for Extraordinary Writ of Mandamus to the New York Supreme Court, New York County
contains 8999 words, including the parts of the brief that are required or exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

&

.

c

Philippe Buhannic
Petitioner Pro Se
65 Central Park West, Unit 17 A
New York, NY 10023
(917)716-3542
December 24, 2019

